 DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General



    ADVISE Could Support Intelligence
       Analysis More Effectively




OIG-07-56                        June 2007
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................3

Background ............................................................................................................................................4

Results of Audit .....................................................................................................................................8

    R&D Planning Approach Does Not Effectively Support ADVISE..................................................8

    System Has Not Been Effectively Implemented to Meet Mission Requirements ............................9

    DHS Components Have Not Committed to ADVISE ....................................................................17

Recommendations................................................................................................................................21

Management Comments and OIG Evaluation .....................................................................................22

Appendices
Appendix A:          Scope and Methodology
Appendix B:          Management Comments to the Draft Report
Appendix C:          Major Contributors to this Report
Appendix D:          Report Distribution

Abbreviations

All-WME               All Weapons of Mass Effect
ADVISE                Analysis, Dissemination, Visualization, Insight, and Semantic Enhancement
DHS                   Department of Homeland Security
GAO                   Government Accountability Office
IPT                   Integrated Product Team
IT                    Information Technology
OI&A                  Office of Intelligence and Analysis
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
PIA                   Privacy Impact Assessment
PTA                   Privacy Threshold Analysis
R&D                   Research and Development
S&T                   Science and Technology Directorate
TVIS                  Threat-Vulnerability Integration System




                                      ADVISE Could Support Intelligence Analysis More Effectively
Table of Contents/Abbreviations

Figures
Figure 1   ADVISE Connects and Visualizes Data to Support Intelligence Analysis ...................4

Figure 2   ADVISE Pilot Implementations ....................................................................................6

Figure 3   ADVISE Funding Summary ..........................................................................................7

Figure 4   Key Areas Not Addressed During ADVISE Effort .....................................................10

Figure 5   ADVISE Implementations and Privacy Assessments..................................................12

Figure 6   Key ADVISE System Operational and Privacy Dates ................................................12

Figure 7   TVIS Deployment Challenges at OI&A ......................................................................14

Figure 8   ADVISE Customer Buy-in ..........................................................................................21




                        ADVISE Could Support Intelligence Analysis More Effectively
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                The Homeland Security Act of 2002 requires DHS to create and use data
                mining tools to access, receive, and analyze law enforcement and intelligence
                information for the purpose of identifying potential terrorist threats within the
                United States. As of August 2006, there were 12 major data mining efforts in
                existence within DHS. One such effort is the Analysis, Dissemination,
                Visualization, Insight, and Semantic Enhancement (ADVISE) program,
                developed by the Directorate of Science and Technology (S&T) to support
                DHS’ strategic goals of terrorism awareness and prevention.

                As directed by the Conference Report (House Report No. 109-699) on H.R.
                5441, Department of Homeland Security Appropriations Act of 2007, we
                audited the ADVISE program. Our audit objectives were to determine the
                effectiveness of (1) strategies, policies, and procedures for conducting data
                mining to produce actionable intelligence on terrorists; (2) systems and
                activities using data mining techniques; and (3) communication and
                coordination with information security partners and the public to help prepare
                for and counter the potential threats identified. The scope and methodology of
                this review are discussed in Appendix A.

                The ADVISE program is at risk, due to a number of factors. Specifically,
                S&T program managers did not develop a formal business case for the
                research and development project, in part because they were unaware of
                requirements to do so. In addition, program managers did not address privacy
                impacts before implementing three pilot initiatives to support ADVISE.
                Further, due to inadequate data access and system usability, Office of
                Intelligence and Analysis (OI&A) analysts did not use the ADVISE pilot.
                Finally, because S&T did not effectively communicate and coordinate with
                DHS leadership about the benefits of ADVISE, departmental components
                have been unwilling to adopt ADVISE to support their intelligence analysis
                operations. As a result of privacy concerns, DHS has discontinued the three
                ADVISE pilots. Further, due to a lack of stakeholder commitment, program
                managers have stated that continuation of the ADVISE program is in question
                if an owner cannot be found to pay for future system operations and
                maintenance costs.



                   ADVISE Could Support Intelligence Analysis More Effectively

                                             Page 3
Background
             S&T is the department’s primary research and development arm, responsible
             for providing federal, state, and local officials with the technology and
             capabilities needed to protect the homeland. S&T fulfills this mission through
             its strategic objectives of, among other things, developing and deploying state-
             of-the-art, high performance systems to prevent, detect, and mitigate the
             consequences of chemical, biological, radiological, nuclear, and explosive
             attacks.

             S&T developed ADVISE as a key technology to carry out its strategic goals.
             ADVISE is a collection of software, hardware, and operational standards that
             can be adapted and tailored to meet the specific needs of the user organization.
             ADVISE provides the ability to search, integrate, and gain rapid insights from
             large quantities of information across disparate databases, a process that
             would otherwise be overwhelming to intelligence analysts. ADVISE
             identifies connections among people, organizations, and events, and produces
             visual representations of these patterns, as shown in Figure 1.



                                 ADVISE Visually Depicts Information to Support Analysis


                      Dick             Attended        Meeting             Attended         Jane




                                 ADVISE Connects Information Across Multiple Databases



                       Data                                Data                              Data
                     Source #1                           Source #2                         Source #3




             Figure 1: ADVISE Connects and Visualizes Data to Support Intelligence Analysis

             ADVISE is intended to benefit intelligence analysts by:

             •   Revealing information or related topics that would otherwise go
                 unnoticed;
             •   Enabling comprehensive analysis capabilities in one place; and
                 ADVISE Could Support Intelligence Analysis More Effectively

                                              Page 4
                          •   Providing a watch and warning capability to notify analysts when a certain
                              pattern is detected.

                          DHS is to use the analysis made possible through ADVISE to help detect,
                          deter, and mitigate threats to our homeland and disseminate timely
                          information to its homeland security partners and the American public.

                          ADVISE development began in early 2003 following discussions between
                          S&T officials and personnel at the Department of Energy’s national
                          laboratories, including Lawrence Livermore National Laboratory (Livermore)
                          and Pacific Northwest National Laboratory (Pacific Northwest), about
                          developing a data mining and visualization technology for DHS intelligence
                          analysts. 1 These laboratories had prior knowledge and experience in
                          developing such technologies for another federal intelligence agency. S&T
                          provided funding for the laboratories to develop ADVISE, building on this
                          prior work.

                          In 2004, S&T expanded the ADVISE concept to provide a general framework
                          for supporting the analytical activities of multiple DHS organizations. By
                          2005, S&T had used the ADVISE framework to implement the following
                          three pilot programs:

                          •   The Biodefense Knowledge Management System, developed to explore
                              linkages among biodefense data and assessment to produce actionable,
                              scientifically rigorous information for anticipating, preventing, and
                              responding to biological threats. With funding by S&T, the Biodefense
                              Knowledge Center at Livermore uses this pilot system to help integrate
                              biodefense information and anticipate and respond to bioterrorist attacks.

                          •   All Weapons of Mass Effect (All-WME), which uses ADVISE to
                              determine the capabilities of foreign and domestic terrorist groups to
                              develop and deploy weapons of mass effect. The All-WME program is
                              also an S&T-funded initiative at Livermore.

                          •   The Threat-Vulnerability Integration System (TVIS), which combines and
                              fuses data in unique ways to create and share knowledge of potential
                              terrorist threats. S&T implemented the ADVISE pilot at OI&A, the
                              primary pilot system for demonstrating ADVISE capabilities. The system
                              is to support the office’s mission of providing homeland security
                              intelligence to the DHS Secretary and other federal, state, local, and
                              private sector partners.



1
 The Homeland Security Act of 2002 gives DHS the authority to use the Department of Energy’s national laboratories to
support homeland security activities.
                              ADVISE Could Support Intelligence Analysis More Effectively

                                                        Page 5
                           The pilots used live data, including personally identifiable information, from
                           multiple sources in attempts to identify potential terrorist activity. Figure 2
                           provides a timeline for the three ADVISE initiatives, which became
                           operational in late 2004 to early 2005.


                                                   ADVISE Pilot Implementations

                                            2004             2005                2006           2007


                                     System
                                     Operational       Biodefense Knowledge Management System
                                     Timeline:

                                                                       All-WME


                                                                         TVIS




                           Figure 2: ADVISE Pilot Implementations

                           The ADVISE pilot initiatives use a data mining approach to glean insights
                           from large amounts of data across various sources. Data mining is the process
                           of knowledge discovery and predictive modeling and analytics, traditionally
                           involving the identification of patterns and relationships from databases. 2
                           Data mining has been used successfully for a number of years in the private
                           and public sectors for a broad range of applications. For example, in
                           commercial industry these applications include customer relationship
                           management, market research, retail and supply chain analysis, medical
                           analysis and diagnostics, financial analysis, and fraud detection. In
                           government, data mining is increasingly used to help detect terrorist threats
                           through the collection and analysis of both public and private sector data.
                           Although data mining does not replace the expertise that an analyst provides,
                           it automates and facilitates some of the laborious tasks that an analyst
                           performs.

                           Due to the ease with which automated systems can be used to gather and
                           analyze large amounts of previously isolated data, a number of concerns about
                           potential misuse of personally identifiable information have been raised. Prior
                           federal data mining efforts faced challenges in balancing the benefits and risks
                           of this activity. For example, the Total Information Awareness program, a
                           Department of Defense research and development data mining program to
                           defend against the threat of terrorism, faced considerable negative publicity
                           and was ultimately shut down by the Congress due to privacy concerns.


2
    Survey of DHS Data Mining Activities, OIG-06-56, August 2006.
                               ADVISE Could Support Intelligence Analysis More Effectively

                                                         Page 6
                        Given these data mining challenges, in 2006, the Congress directed the
                        Government Accountability Office (GAO) to review the ADVISE program to
                        determine the system’s capabilities, uses, and associated benefits. The
                        Congress wanted to know whether potential privacy issues could arise from
                        using the tool and how DHS has addressed such issues. Based on its review,
                        GAO reported that prior to implementing the system DHS needed to ensure
                        that privacy protections were in place. 3 As such, GAO recommended that
                        DHS immediately conduct a privacy impact assessment (PIA) of the ADVISE
                        tool and implement privacy controls, as needed, to mitigate any identified
                        risks. Based on the system’s cost and potential privacy impact, the Congress
                        directed our office to review the ADVISE program, as well. 4

                        Figure 3 charts the ADVISE budget through fiscal year 2007, showing a total
                        program budget of about $42 million. S&T has used these funds for
                        development of the ADVISE framework and deployment of the pilot systems,
                        since the program was based on prior research at the national laboratories.
                        S&T plans to transition funding for ADVISE operations and maintenance to
                        system customers in subsequent years. Hence, funding for FY 2008 is
                        limited, subject to appropriations. Funding for FY 2009 and beyond has not
                        yet been determined.

                                                 ADVISE FUNDING SUMMARY
                         Funding ($ K)              FY 2003 FY 2004 FY 2005 FY 2006 FY 2007               Total

                         Research                                             200            60
                         Development                   3,100      8,300     7,000         4,190   1,000
                         Pilot Deployments             1,900      3,200     7,300         4,250
                         Operational Prototype                                                     1,500
                                           Total:      5,000    11,500    14,500      8,500       2,500 42,000

                        Figure 3: ADVISE Funding Summary




3
  Data Mining: Early Attention to Privacy in Developing a Key DHS Program Could Reduce Risks, GAO-07-293,
February 2007.
4
  H. Rep. No. 109-699 (on DHS Appropriations for FY 2007, P.L. 109-295).
                            ADVISE Could Support Intelligence Analysis More Effectively

                                                      Page 7
Results of Audit
R&D Planning Approach Does Not Effectively Support ADVISE
                  S&T planning and management activities for ADVISE have been insufficient
                  to support effective implementation of the program. Specifically, S&T
                  program managers were unaware of standards and requirements for research
                  and development projects and did not develop a formal business case for the
                  program. Program managers also did not address privacy impacts before
                  implementing three pilot initiatives to support ADVISE. DHS has
                  discontinued its three ADVISE pilot programs, pending completion of such
                  privacy assessments.

Program Management Unaware of Guidelines for Conducting R&D Projects

                  As with systems acquisitions, research and development (R&D) program
                  managers can benefit from clear guidance and procedures on planning,
                  justifying, and deciding from among competing technology solutions.
                  However, according to ADVISE program managers, they were unaware of
                  requirements for accomplishing R&D projects and ultimately transitioning the
                  information technology (IT) solution to potential customers.

                  S&T began ADVISE research efforts in 2003, just after the creation of DHS.
                  At that time, major department organizations, including S&T, were still in a
                  formative stage and had not clearly adopted or communicated the standards
                  for conducting critical program management functions. For example, S&T
                  program managers stated that because the directorate had no structured R&D
                  process in place, they relied instead on their own knowledge and personal
                  experience to determine what program management activities needed to be
                  performed. They focused their efforts on technical capabilities and IT
                  engineering and had no standard list of activities to consult to ensure that
                  important management steps in the R&D process were adequately addressed
                  to meet end user needs.

                  Similarly, it was not clear to ADVISE program management that the system
                  needed a privacy assessment. When the DHS Privacy Office began operations
                  in 2003, it was comprised of only the Chief Privacy Officer and one support
                  staff member, and did not have the resources or capacity to review all DHS IT
                  projects for privacy impacts. Therefore, the office concentrated its privacy
                  evaluation efforts on only those IT projects with completed business cases.
                  Lacking a business case, the ADVISE R&D effort received little Privacy
                  Office oversight and review. The responsibility for performing and
                  documenting privacy impact assessments was not brought to the attention of
                  ADVISE program managers in the early stages of the initiative.


                     ADVISE Could Support Intelligence Analysis More Effectively

                                               Page 8
Business Case Not Prepared for ADVISE

                         Office of Management and Budget (OMB) Circular A-11 requires that a
                         federal agency, as part of its capital planning process, prepare a business case
                         for each major IT project, system, or initiative. 5 Likewise, DHS’ Guide to
                         Information Technology Capital Planning and Investment Control, issued in
                         May 2003, states that a program or project manager is responsible for
                         completing project documentation, including a business case.

                         A business case serves as the primary means of justifying an IT investment
                         proposal, as well as managing the investment once it is funded. For example,
                         a business case can serve as a management tool that helps an agency provide
                         for oversight and periodic review of an IT asset to ensure that it delivers
                         intended benefits and fulfills mission needs and user requirements. As
                         program managers develop business cases, they can demonstrate that they
                         have considered and addressed, among other things, the alignment of the
                         project to customers’ needs, alternative solutions, data requirements, and
                         potential effects on privacy.

                         S&T produced a variety of planning documents, including a concept of
                         operations and system development and implementation plans. However,
                         S&T did not develop a business case for ADVISE, which would have
                         provided a more structured approach to justifying and supporting the IT
                         investment. As previously stated, because S&T had not clearly adopted or
                         communicated R&D processes and procedures at this phase in the
                         directorate’s evolution, program managers were unaware of the requirement to
                         develop such documentation. S&T program managers were unaware of
                         overarching guidance, such as DHS’ Investment Review Process, which
                         requires completion of business cases for IT projects, including R&D projects,
                         that meet specific cost thresholds. 6 Although the ADVISE program’s
                         lifecycle cost of approximately $42 million through fiscal year 2007 met this
                         threshold, S&T program managers proceeded without a business case and
                         have made no plans to prepare one in the future.

System Has Not Been Effectively Implemented to Meet Mission Requirements
                         Inadequate R&D planning has resulted in problems with ADVISE pilot
                         implementation. Specifically, S&T program managers did not conduct
                         assessments to ensure that personal privacy issues were addressed effectively
                         as part of systems implementation. Access to the data needed to demonstrate
                         system capability and effectiveness in meeting mission needs was not
                         adequately coordinated. Moreover, because ADVISE contained limited data

5
  OMB Circular No. A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, July 2004,
amended June 2006.
6
  DHS Management Directive 1400, March 2003.
                             ADVISE Could Support Intelligence Analysis More Effectively

                                                       Page 9
                         and was complicated and time consuming to operate and maintain, few
                         intelligence analysts were committed to using the system.

Key Program Management Activities Not Performed

                         Without a business case, key issues were not identified and addressed during
                         ADVISE R&D. OMB guidance identifies specific key areas that should be
                         addressed in developing business cases for proposed IT initiatives. 7 These
                         areas include conducting privacy impact assessments; identifying the types of
                         data needed for successful system operations; determining how the proposed
                         technology will align with customers’ needs; deciding how integrated product
                         teams (IPT) will be used to plan, budget, procure, and manage the IT project;
                         and, discussing how alternatives were considered before committing to the
                         chosen IT solution. Figure 4 depicts the key areas not addressed during
                         ADVISE R&D due to lack of a business case.

                            Key Areas To Address Within                     Effect of Not Addressing Key
                                  a Business Case                           Areas During ADVISE Effort
                           Privacy Impacts                                 Privacy Not Addressed Timely

                           Types of Data Needed for the System             Data Needs Not Determined

                           IT Alignment to Customers’ Needs                Customers’ Needs Not Determined

                           Integrated Project Teams (IPT)                  IPTs Not Used Effectively

                           Alternative IT Solutions                        Alternative Solutions Not Evaluated

                         Figure 4: Key Areas Not Addressed During ADVISE Effort

                         Failure to address these issues during the R&D process limited the
                         effectiveness of the ADVISE pilot program, as discussed below.

                         Privacy Impacts Not Determined for ADVISE

                         Section 208 of the E-Government Act of 2002 requires federal agencies to
                         conduct a Privacy Impact Assessment (PIA) for each new or substantially
                         changed IT system that collects, maintains, or disseminates personally
                         identifiable information. Additionally, DHS’ official guidance for PIAs,
                         which was first issued in 2004 and updated in 2006, says that if a system is
                         being designed to handle personal information, a PIA is required at the very
                         earliest stage of a project or prior to commencement of a pilot test. 8

7
  OMB Circular No. A-11, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital Assets,
July 2004, amended June 2006.
8
  DHS Privacy Office, Privacy Impact Assessment Official Guidance, March 2006, previously Privacy Impact
Assessments Made Simple, February 2004.
                             ADVISE Could Support Intelligence Analysis More Effectively

                                                       Page 10
PIAs have many benefits. Among other things they document what
information is to be collected, the intended use of the information, with whom
the information will be shared, and how the information will be secured.
Conducting a PIA ensures that:

•   Public citizens are aware of the information that an agency collects about
    them;
•   Any impacts that these systems have on personal privacy are adequately
    addressed; and
•   An agency collects only enough personal information to administer its
    programs, and no more.

Further, a PIA confirms that an agency uses the information for the purpose
intended, that the information remains timely and accurate, and that it is
protected by the agency and held only as long as needed.

Despite the requirements for, and benefits of, addressing potential privacy
impacts early during system design, ADVISE program managers did not
begin this process until after the pilot programs were already operational.
DHS privacy officials told S&T that no such action was required during the
initial stages of ADVISE development. Because S&T program managers did
not maintain regular contact with the Privacy Office during ADVISE R&D,
they did not obtain additional guidance on when to begin the privacy
documentation process or who was responsible for completing it. S&T
program managers were unaware of DHS’ Investment Review Process that
requires that when a project is sponsored directly by S&T, as was ADVISE,
the S&T project team is responsible for meeting all investment management
requirements, including developing a business case and, in this context,
addressing privacy issues. Not understanding this process, ADVISE program
managers believed it was the responsibility of the individual DHS component
offices, not S&T, to develop and submit privacy documentation because those
offices owned the data that would be used by the system.

For its part, the DHS Privacy Office did not know that S&T had proceeded
with implementation of the ADVISE pilot programs with live data, but
without addressing privacy matters. In a July 6, 2006, report to the Congress,
the Privacy Office stated that the ADVISE tool alone does not perform data
mining. However, the report went on to state that implementation of this
system with live data could be considered a data mining tool. Unbeknownst
to the Privacy Office, the ADVISE pilots had been implemented at least 18
months prior to its July 2006 report.

Given the lack of communication and coordination between S&T and the
DHS Privacy Office, ADVISE program managers did not conduct the first
step in the privacy assessment process—completing privacy threshold
    ADVISE Could Support Intelligence Analysis More Effectively

                             Page 11
analyses (PTAs) to determine whether PIAs were necessary for each of the
three pilots—until one to two years after the systems had been deployed.
Upon reviewing the PTAs, the Privacy Office determined that each of the
three ADVISE pilot systems would require a PIA. Figure 5 illustrates the
time lapse between ADVISE implementation and submission of the initial
PTAs and PIAs for the three pilot systems.

                                ADVISE Pilot Implementations
                                 and Privacy Assessments

                     2004                     2005                      2006                   2007


           System                                                                PTA
           Operational                                                                  PIA
                                      Biodefense Knowledge Management System
           Timeline:
                                                                           PTA
                                                           All-WME                     PIA

                                                                          PTA

                                                              TVIS                     PIA



                                                                                 System Use Shut Down
                                                                                   Pending Results of
 Key                                                                                 Privacy Review
 Milestones:

  PTA    = Privacy Threshold Analysis Submitted to DHS Privacy Office


   PIA   = Privacy Impact Assessment Submitted to DHS Privacy Office




Figure 5: ADVISE Implementations and Privacy Assessments

According to the Privacy Office, S&T submitted the PTAs for the three
operational ADVISE pilot systems in mid to late 2006. The actual submission
dates of the PTAs and PIAs are shown in Figure 6.


  ADVISE Implementations
                                                          PTA Submission                          PIA Submission
             and
                                                               Date                                    Date
 Operational Start Timeframe
 BKMS                    Oct 2004                               11/06/2006                              03/07/2007

 All-WME                Dec 2004                               07/21/2006                               01/19/2007

 TVIS                    Jan 2005                              06/27/2006                               01/19/2007

Figure 6: Key ADVISE System Operational and Privacy Dates

Failure to properly address privacy issues prior to deploying the three pilots
had the ultimate effect of bringing the ADVISE program to a halt. In its
    ADVISE Could Support Intelligence Analysis More Effectively

                                       Page 12
                        February 2007 report, GAO recommended that DHS immediately conduct
                        ADVISE privacy impact assessments and implement privacy controls, as
                        needed, to mitigate any identified risks. Subsequently, in March 2007, S&T
                        shut down all of the ADVISE pilot programs until privacy impacts can be
                        determined.

                        Privacy considerations cannot be ignored in the context of data mining
                        systems and activities. Maintaining the appropriate balance between the need
                        to “connect the dots” and the need to respect the privacy and other legal rights
                        of U.S. citizens can be a difficult and time-consuming effort, but is a
                        necessary one. Civil liberties organizations have challenged other data mining
                        activities in the past; unaddressed privacy concerns pose similar challenges for
                        the ADVISE program success. Recognizing the risks created by not
                        addressing privacy issues in a timely manner, senior S&T management is now
                        working with the Privacy Office to complete the required assessments and
                        help get the program back on track.

                        Limited Data Access

                        OMB Circular A-130 directs that agencies, as part of their IT investments
                        planning process, determine how data will be accessed and used to support
                        proposed systems. 9 Similarly, OMB Circular A-11 directs agencies to
                        consider the risks inherent in acquiring data from existing sources and
                        converting it for use in implementing new IT systems.

                        Despite these requirements, S&T did not address adequately data access
                        issues prior to implementing TVIS, one of the three ADVISE pilots, intended
                        for use by OI&A intelligence analysts who are the primary customer of
                        ADVISE. S&T program planning documents indicate that the national
                        laboratories, responsible for developing TVIS, identified the risks that a lack
                        of available data could pose to the system’s success. Specifically, TVIS was
                        designed to identify connections across multiple databases with large
                        quantities of data. To operate effectively, TVIS requires direct connection
                        with source databases and depends on data being extracted and ingested
                        routinely and automatically from these sources. The national laboratories
                        identified approximately 50 internal DHS data sources and 100 external data
                        sources that could support the system.

                        However, S&T did not take sufficient action to ensure access to the data
                        needed for TVIS pilot implementation. At the start of the program, S&T did
                        not know who owned the data needed or how to get access to it. S&T also
                        had no process in place for working through these issues. Assuming that
                        OI&A already had easy access to large amounts of data and the processes in

9
 Revision of OMB Circular No. A-130, Transmittal 4, Management of Federal Information Resources, November 28,
2000.
                            ADVISE Could Support Intelligence Analysis More Effectively

                                                     Page 13
place to facilitate obtaining such access, S&T relied on OI&A intelligence
analysts to provide the system data on an ad hoc basis. However, this
approach was not effective. Although the OI&A analysts had access to
considerable data via individual accounts, they lacked direct access to the
source databases. The OI&A analysts also did not have the position or
authority to coordinate the information sharing agreements necessary to
ensure data access on a continuing basis.

Nonetheless, the intelligence analysts provided the limited data that they had
to support TVIS, but found that the amount of information was inadequate to
make ADVISE more useful than their existing analysis tools. Although TVIS
planning documents indicated a goal of having 15 data sources loaded into
TVIS by 2007, as of March 2007, only seven data sets had been loaded—
more than two years after TVIS was deployed. Further, these seven data sets
that were loaded were of limited size, and inadequate to demonstrate the broad
analytical capability of the system. Due to the lack of data to populate the
system, the analysis provided through TVIS was no greater than results
obtainable via other existing intelligence analysis tools. For example,
Analyst’s Notebook, an off-the-shelf tool currently used, also provides
analysts with the ability to visually depict connections among people,
organizations, and events. Figure 7 illustrates the extended amount of time
required to access the limited data sets used to conduct the TVIS pilot.



                 TVIS Deployment Challenges at OI&A
   January                January                                   January
 2004                    2005                2006                2007


                                              Challenge
              Hardware
                                              Obtaining
               Setup
                                             Data Access
  Hardware                 TVIS                                   Only Seven
  Delivered              Operational                             Datasets Used


Figure 7: TVIS Deployment Challenges at OI&A

In contrast to TVIS, the two other ADVISE pilot systems—the Biodefense
Knowledge Management System and All-WME—had access to sufficient
data. The programs engaged in these pilots have been able to dedicate the
staff resources required to input data to the systems. Analysts that use these
pilot systems have found the analysis that they provide to be highly beneficial.
For example, All-WME analysts have used their pilot system to uncover
previously unknown connections between organized crime and terrorism.
Additionally, Biodefense Knowledge Management System users rely on their
pilot system to explore linkages among open source medical resources and
   ADVISE Could Support Intelligence Analysis More Effectively

                                Page 14
                          documentation, and produce actionable biodefense information and
                          assessments.

                          System Usability Could be Improved

                          OMB Circular A-11 directs agencies to reduce project risk by involving
                          stakeholders in the design of IT assets. 10 When users are not involved in
                          system development, it is difficult to ensure that the system will provide for
                          their needed functions.

                          Despite these requirements, S&T did not involve adequately users early in the
                          design of TVIS—the primary pilot system for demonstrating ADVISE
                          capabilities. The initial requirement for TVIS was based on the high-level
                          need identified after the September 11, 2001, terrorist attacks to enhance
                          information sharing across federal, state, local, and private sector
                          organizations. TVIS was conceived as an advanced analytical tool to help
                          “connect the dots” and synthesize vast amounts of information across multiple
                          sources in ways not yet available in the commercial marketplace. As such,
                          S&T set out to develop a large, powerful system, with far-reaching
                          capabilities that, some components believed, exceeded the processing capacity
                          needed. Consequently, TVIS performance metrics focused on technical
                          functionality, such as the number of facts the system could process
                          simultaneously, rather than on ease of use.

                          S&T program managers said that they attempted to include OI&A analysts in
                          TVIS development activities to obtain more specific user requirements. For
                          example, at one point, S&T met with selected OI&A analysts to elicit their
                          input and document user requirements. 11 However, the newness and
                          uncertain mission of the DHS intelligence office at that time made it difficult
                          to understand its business requirements. Further, the high turnover among
                          intelligence analysts made it difficult to maintain relationships with the users
                          long enough to understand sufficiently their functional and IT needs.

                          Due to the challenges in working with OI&A analysts, S&T reached out to
                          intelligence analysts at the national laboratories to obtain requirements input.
                          However, by focusing on analysts at the labs, S&T compiled user
                          requirements that did not consider the constraints and work environment at
                          OI&A, the primary customer of ADVISE. Specifically, OI&A analysts’ work
                          tends to be short-term, tactical analysis, yielding immediate response. As
                          such, OI&A analysts typically remain busy with daily workloads and have
                          minimal time for other matters such as training and data input. In contrast,

10
   Circular No. A-11, Part 7, Planning Budgeting, Acquisition, and Management of Capital Assets, Executive Office of
the President, Office of Management and Budget, June 2006.
11
   S&T met with intelligence analysts of the former Information Analysis and Infrastructure Protection directorate, which
no longer exists under the current DHS organization. Following the Secretary’s 2005 Second Stage Review, former
functions of the directorate were divided among OI&A, and Preparedness.
                               ADVISE Could Support Intelligence Analysis More Effectively

                                                         Page 15
intelligence analysts at the Biodefense Knowledge Center and All-WME tend
to work on long-term, strategic intelligence problems that allow considerable
time to identify and acquire data sources and prepare data for analysis in the
system. By focusing on the system functionality requirements of the national
lab users in developing ADVISE, S&T did not address effectively its primary
users’ requirements for ease of use and quick turnaround.

For example, OI&A analysts found that preparing data for processing in TVIS
was difficult and time consuming. Much of the information needed by OI&A
analysts is generally found in unstructured formats, such as text documents
and email messages. However, TVIS was designed to easily process large
amounts of structured information, accessed directly from other systems or
databases. TVIS cannot readily extract information from unstructured
sources. Analysts must first review available documentation, manually tag the
relevant portions, and then input the information to the system—a time
consuming and resource intensive activity. Analysts said they do not have
time to devote to such data preparation and input, but must rely on technical
support staff to perform these tasks.

Because of data limitations and system complexity, OI&A intelligence
analysts never became committed, routine users of TVIS, even though the
pilot remained operational for more than two years. Further, S&T had
developed a goal of deploying TVIS to more than 100 OI&A analysts’
desktops by summer 2007; however, only one or two analysts had access to
TVIS at any given time while the system was operational at OI&A. Without
widespread use of TVIS, S&T was not able to demonstrate fully the pilot
system’s potential to synthesize and process large amounts of information
from disparate data sources.

Lacking the capability that TVIS was intended to provide, analysts said they
cannot accomplish their mission responsibilities effectively. Analysts
continue to rely on previously existing systems, such as Analyst’s Notebook,
to support their intelligence activities; however, this tool does not provide the
capability needed to connect large quantities of information across multiple
databases. As a result, analysts continue to waste time searching through
individual, unconnected data sets for related information. Analysts also lose
valuable time due to cumbersome processes to gain access to needed data.
Specifically, in the absence of interagency agreements for broad-based data
sharing, OI&A intelligence analysts individually must submit written requests
for information that they need from other DHS component organizations.
With limited tools, analysts are concerned that they may miss the data
interrelationships necessary to help identify potential terrorist threats and
activities.

To address the department’s data sharing issues, DHS Secretary Chertoff
recently issued a policy instructing component offices to review their
   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 16
                            procedures and ensure that they facilitate, rather than impede, the exchange of
                            information with OI&A. 12 In the policy, the Secretary directed all DHS
                            components to ensure that employees have access to all information pertinent
                            to their responsibilities. The Secretary also emphasized that DHS must move
                            to using standardized technology to describe, access, exchange, and manage
                            information in its automated systems. To help carry out this direction, an
                            Information Sharing and Collaboration Branch, recently established by OI&A,
                            is working in conjunction with the DHS Chief Information Officer to catalog
                            existing information sharing agreements that can be leveraged to support
                            OI&A data sharing and exchange.

                            Despite the challenges of loading data into ADVISE, recent tests have
                            provided positive results regarding the system’s user interface. Specifically,
                            the Interagency Center for Applied Homeland Security Technology conducted
                            an evaluation of ADVISE in early 2007 using simulated data preloaded into
                            the system. The center provided various federal and state analysts with
                            training prior to giving them tasks to perform using the system. When asked
                            to evaluate the usability and utility of ADVISE, test participants generally
                            gave the tool a good rating.

                            Further, S&T program management has initiated efforts to address TVIS user-
                            friendliness issues by developing simple tools with which to perform data
                            searches in TVIS. For example, a pre-defined query has been developed to
                            alert analysts of travel by suspected terrorists to the United States. The query
                            uses specific criteria for assessing the timing and frequency of suspect
                            attempts to cross the U.S. border. The national laboratories also are
                            developing tailored knowledge products to facilitate use of ADVISE so that
                            less training is required. For example, one tailored knowledge product allows
                            analysts to query information on bio-weapons, such as anthrax, using a simple
                            keyword search.

DHS Components Have Not Committed to ADVISE
                            S&T did not coordinate effectively with stakeholders to ensure their
                            commitment to adopt ADVISE as a solution for their intelligence analysis
                            activities. Specifically, S&T did not involve stakeholders in the IT selection
                            process via IPTs. S&T also did not explore alternative solutions to meeting
                            customer needs within their existing financial, infrastructure, and facility
                            constraints. As a result, the component stakeholders are not convinced that
                            they need ADVISE and have not agreed to accept ownership for the system
                            after the pilot phase of the program has been completed.




12
     DHS Policy for Internal Information Exchange and Sharing, February 1, 2007.
                                ADVISE Could Support Intelligence Analysis More Effectively

                                                         Page 17
Ineffective Communication and Coordination With Stakeholders

                         Partnering with stakeholders is critical to securing end user commitment and
                         ensuring the success of an IT investment. Conversely, limiting stakeholder
                         involvement can lead to the development or acquisition of systems that might
                         not meet user needs and ultimately might not be adopted for mission use.
                         OMB Circular A-11 recommends the use of IPTs as one way to engage
                         stakeholders in, and effectively guide, IT efforts. 13 An IPT is a multi-
                         disciplinary team led by a program manager responsible and accountable for
                         planning, budgeting, acquiring, and managing a project throughout its life
                         cycle to ensure that it successfully achieves cost, schedule, and performance
                         goals. Participants on an IPT might include senior leadership of user
                         organizations, program managers, system developers, customer
                         representatives, and acquisition officials. Working together, IPT participants
                         can use a consensus approach to exploring needs, identifying possible
                         solutions, and validating strategies for moving forward.

                         In developing ADVISE, S&T did not take steps to ensure DHS component
                         commitment by instituting IPTs or other methods for involving the
                         components in the development process. As previously discussed, S&T built
                         ADVISE from high-level system requirements and did not obtain an
                         understanding of the privacy, data, and system usability concerns of the
                         individual DHS components. The limited outreach that S&T did perform
                         consisted of ad hoc meetings, demonstrations, and briefings on the technical
                         capabilities of the system. As such, potential customers did not get a clear
                         understanding of how ADVISE might benefit their individual organizations.
                         Potential ADVISE customers also did not get a chance at the beginning stages
                         of system design to discuss costs, consider constraints, and ensure that their
                         specific user needs would be addressed.

                         Without the opportunity to dialogue on such issues during the early phases of
                         the program, potential customers are finding it difficult to fit this large,
                         expensive system into their budgets. While estimates are not yet complete,
                         initial projections indicate that purchasing and installing ADVISE will be at
                         least $1 million, with yearly operations and maintenance costs of
                         approximately $400,000. Although S&T paid for ADVISE operations and
                         maintenance during the pilot phase of the program, it is expected that these
                         costs will transfer to the DHS customers when they take ownership of the
                         system. As of December 2006, S&T did not have an estimate of the costs that
                         each potential ADVISE customer would incur to operate and maintain
                         ADVISE after implementation. Nonetheless, a number of potential customers


13
  OMB Circular No. A-11, Part 7, Planning Budgeting, Acquisition, and Management of Capital Assets, Executive
Office of the President, Supplement, June 2006.

                             ADVISE Could Support Intelligence Analysis More Effectively

                                                      Page 18
said they are already concerned about their ability to assume what they expect
to be a significant financial burden.

For example, officials of Customs and Border Protection’s Office of Strategic
Trade initially expressed interest in ADVISE as a potential solution to their
requirement to view and process millions of pieces of trade data. Customs
and Border Protection officials received a demonstration of ADVISE
capabilities and attended a training session at Livermore. However, after
learning the cost of ADVISE, these officials told S&T that the system was too
expensive and therefore would not be a good option for them. Similarly,
Immigration and Customs Enforcement officials complained that there has not
been any clear analysis of the support costs for ADVISE. For example, they
asked how much it would cost to train their personnel to use the system, but
S&T provided no response. Lacking such information, Immigration and
Customs Enforcement officials have been unable to make a decision about
adopting the system.

In addition to issues related to system cost, some components expressed
concerns about their ability to house and maintain the system, given their
infrastructure limitations. ADVISE is a powerful system that operates using
ten to fifteen servers and other multiple processors. Once installed and
running, the hardware requires considerable electrical power and generates a
large amount of heat. Components were concerned that they would have to
update their physical infrastructures to meet these power and cooling
requirements. Immigration and Customs Enforcement officials were fairly
certain that they do not have the capacity or facilities needed to support these
needs. As a result, these officials are exploring the possibility of using just the
visualization portion of ADVISE.

Recently, in efforts to involve customers better and more consistently in its IT
selection process, DHS has established ten IPTs covering major DHS
functional areas, one of which is information sharing. The IPTs bring DHS
leadership and user representatives into the IT acquisition process where they
can help identify capability gaps, offer technical solutions to fill these gaps,
provide a system end-user perspective in selecting IT solutions, and validate a
plan for IT acquisition. The expected result of this IPT process is a prioritized
list of proposed S&T technology investments. The S&T Under Secretary has
given DHS’ Transition Office responsibility for coordinating IPT activities.

In early 2007, based on information gathered through this recently established
IPT process and other communications with DHS components, S&T shifted
its focus to building a smaller version of ADVISE that will cost much less
than the full-scale version. National laboratory officials agree that a scaled
down version of ADVISE can offer comparable capabilities, but will lack the
capacity to handle very large data sets. As a result, this smaller system may

   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 19
                    not be able to fulfill DHS’ mandate to synthesize vast amounts of information
                    across multiple sources.

Lack of Alternative Analysis

                    IT project selection involves, among other things, a preliminary investigation
                    of alternative solutions. Specifically, OMB Circular A-130 requires that
                    agencies prepare, and update as necessary, a benefit-cost analysis for each
                    information system, demonstrating consideration of alternatives and choosing
                    the most cost-effective one.

                    However, in addition to not assessing DHS’ existing intelligence analysis
                    systems, S&T did not examine commercially available products to determine
                    whether or not they might meet users’ needs. For example, even though the
                    ADVISE pilot operated within OI&A for more than 2 years, office leadership
                    did not understand how ADVISE compared with existing intelligence analysis
                    technologies such as Analyst’s Notebook, or other systems that could be
                    purchased off-the-shelf. About a year ago, one OI&A official requested that
                    S&T provide a comparison of ADVISE to other systems, as well as a
                    projection of the corresponding system operations and maintenance costs. It
                    was not until March 2007 that ADVISE program officials provided a response
                    to this request, via a presentation of the system to OI&A leadership.
                    However, OI&A leadership found the presentation to be too technical and
                    remained unconvinced that ADVISE was unique or would be the right
                    solution for OI&A.

                    It was in the course of this presentation that OI&A became aware of a
                    potentially viable off-the-shelf tool called “Riverglass,” which is currently
                    being used successfully at the Illinois State Fusion Center to support
                    intelligence analysis. Riverglass uses a “federated” search capacity; that is,
                    the data can be accessed by the system remotely. OI&A prefers this type of
                    data access capability because the information does not have to be brought
                    into a central location prior to system use. Also, because the system is
                    commercially available, some users believe that it would be easier to maintain
                    than a custom-built solution. OI&A expressed interest in Riverglass and
                    requested that S&T test it as a potential candidate to meet its needs.

Components Have Not Agreed to Accept Ownership of ADVISE

                    Because S&T did not adequately involve DHS stakeholders in the process to
                    identify system needs, solutions, and program strategies, and also did not
                    sufficiently evaluate technical alternatives, the components are not convinced
                    that they need ADVISE and thus are not committed to the system. DHS
                    component leaders also are not sure that the benefits of ADVISE outweigh the
                    costs and have not agreed to accept ownership for the system after the pilot
                    has been completed. Figure 8 shows the major DHS organizations at which
                       ADVISE Could Support Intelligence Analysis More Effectively

                                                Page 20
              S&T has either demonstrated or piloted ADVISE, along with their decisions
              concerning adoption of the system or not.




              Figure 8: ADVISE Customer Buy-in

              Specifically, OI&A leadership have declined ADVISE, stating that for the
              moment they will continue to use their existing tools until the appropriate off-
              the-shelf solution can be determined and acquired. One OI&A official said
              that even if ADVISE provided slightly better functionality than other off-the-
              shelf systems, the preference would be to adopt an off-the-shelf solution that
              is easy to maintain and operate versus a government-built solution like
              ADVISE. Also, Customs and Border Protection, Office of Strategic Trade
              officials declined the system, saying that ADVISE is too expensive to set up
              and maintain. Lastly, Immigration and Customs Enforcement has declined
              ADVISE, but has expressed interest in the visualization part of the system that
              would allow them to view information better from within their existing
              system. S&T program management have stated that without identifying a
              customer to help pay for ADVISE operations and maintenance costs by 2008,
              the ADVISE program will come to an end.

Recommendations
              To ensure effectiveness of the ADVISE program and the management of other
              R&D efforts, we recommend that the Under Secretary for Science and
              Technology:

              1. Develop and document an R&D process for S&T and communicate this
                 process to IT program management.
              2. Ensure that business cases are developed for R&D efforts as a means of
                 addressing critical program management activities.
              3. Appoint an S&T privacy point of contact to act as a liaison with the DHS
                 Privacy Office to help ensure that privacy issues are addressed in a timely
                 manner.
              4. Coordinate with OI&A management and the Information Sharing and
                 Collaboration Branch to create a data requirements and access strategy
                 that includes, at a minimum, defining and documenting the process to

                  ADVISE Could Support Intelligence Analysis More Effectively

                                           Page 21
                  obtain access to internal DHS databases and information from external
                  sources.
               5. Define usability requirements and related performance measures to ensure
                  that future data mining technology implementations are sufficiently user-
                  friendly to enable DHS analysts to use them effectively.
               6. Involve DHS stakeholders in the IT acquisition process to ensure the
                  system will meet their needs.
               7. Ensure program management conducts a comparative analysis of available
                  tools to determine whether or not they meet customer needs and provide
                  viable alternatives to ADVISE.

Management Comments and OIG Evaluation
               We obtained written comments on a draft of this report from the Under
               Secretary for Science and Technology. We have included a copy of the
               comments in their entirety at Appendix B.

               In the comments, the Under Secretary for Science and Technology disagreed
               with many of the findings and recommendations from the report, stating that
               there were several areas in the report that needed to be corrected in order to
               provide an accurate picture of the ADVISE program. With the exception of
               our fourth recommendation regarding coordination on information sharing
               requirements, the Under Secretary neither concurred nor non-concurred with
               our recommendations. The Under Secretary provided detailed comments and
               supporting documentation directed at the overall findings of the report and
               recommendations, as well as a list of specific comments to clarify statements
               in the report believed to be inaccurate.

               We have reviewed the Under Secretary’s comments and made changes to the
               report as appropriate. However, we disagree with several of the major issues
               that the Under Secretary raised in the response to our draft report. The
               following is our evaluation of the issues raised, grouped in line with our report
               recommendations.

               Documented R&D Process:

               Regarding recommendation 1 that S&T develop, document, and communicate
               an R&D process for IT program management, the Under Secretary stated that
               the directorate’s R&D programs follow a structured process and are reviewed
               by multiple management forums, such as the S&T Requirements Council.
               The Under Secretary also said that S&T’s current IPT processes help satisfy
               this recommendation. We are aware of the multiple councils and forums that
               S&T has in place to manage R&D efforts; however, they do not provide a
               clear R&D process for program managers to follow. We reviewed the
               documents that the Under Secretary provided on the multiple councils and
               forums, but found that they also do not address our recommendation that the
                  ADVISE Could Support Intelligence Analysis More Effectively

                                           Page 22
directorate provide guidance on activities, such as conducting privacy
assessments and developing business cases that need to be performed as part
of R&D program management.

Business Case:

Concerning recommendation 2, we disagree with the Under Secretary’s
determination that ADVISE is not an IT system and therefore does not require
an OMB Exhibit 300 business case. Specifically, OMB and department
guidance do not exclude R&D projects such as ADVISE from the OMB
Exhibit 300 business case process. The DHS Guide to Information
Technology Capital Planning and Investment Control also holds program
managers responsible for completing business cases. In addition, a recent
draft of DHS Management Directive 1400 specifically requires formal
business cases for R&D projects, such as ADVISE, that meet funding
thresholds for Investment Review Process oversight.

As we state in our report, if S&T had developed a formal business case for the
ADVISE program as required, it would have been beneficial in addressing
certain key program management activities, such as aligning the effort with
customer needs, identifying alternative technical solutions, and determining
data requirements and potential effects on privacy, which were overlooked.
As the Under Secretary suggests, using the Capstone IPT concept may assist
in defining requirements and getting signed Technology Transfer Agreements
in place and ensuring commitment to delivery of technologies to address
customer needs. However, this IPT concept alone does not address the full
intent of our recommendation.

Privacy:

In response to recommendation 3, the Under Secretary stated that privacy law
and DHS Privacy Office guidance on assessing privacy impacts do not apply
to ADVISE for a number of reasons. First, the Under Secretary asserted that
ADVISE is a tool set and thus not a system, requiring such privacy
assessments. However, we do not direct our recommendation at conducting
privacy assessments on a technical tool. Rather, we recommend completing
privacy assessments for implementation of the holistic ADVISE solution
which, as piloted, has involved the use of personally identifiable data that
must be protected. ADVISE program managers did not begin the privacy
assessment process until well after the pilot programs were already using
personally identifiable information; this effort is still in process.
Consequently, our report recommends that S&T appoint a privacy point of
contact to act as a liaison with the DHS Privacy Office to help ensure that the
privacy assessments are completed and that related issues are addressed in a
timely manner.

   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 23
                        Second, the Under Secretary misinterprets our use of the term “operational” to
                        describe the ADVISE pilots. With the term “operational pilot,” we simply are
                        restating ADVISE program officials’ description of the pilots, recognizing
                        that they were conducted using live data. Indeed, during our audit, we found
                        that several ADVISE pilots were conducted with personally-identifiable
                        information prior to S&T having completed privacy assessments as required.
                        Further, the Under Secretary states that the data was only used in the ADVISE
                        pilots for a short period of time and was never used in an operational mode for
                        decision-making. However, our audit work shows that the data was used in
                        pilot systems for one to two years. Additionally, on at least one occasion, the
                        data was used to produce classified intelligence information.

                        Third, the Under Secretary interprets our report as stating that ADVISE
                        program managers neither conducted the appropriate privacy assessments and
                        analysis, nor prepared related documentation. We do not say that program
                        managers did not undertake this responsibility. Rather, our report states that
                        S&T’s failure to properly address privacy issues in a timely manner prior to
                        deploying the three ADVISE pilots had the ultimate effect of bringing the
                        program to a halt. The additional information that the Under Secretary
                        provides on time frames for conducting the pilots provides no new insights
                        and further substantiates our findings. Specifically, the time frames do not
                        differ greatly from the dates that the DHS Privacy Office provided, which we
                        outlined in our report.

                        Fourth, the Under Secretary suggested that we change the name of the Bio
                        Defense Knowledge Center pilot that we discuss in our report. We disagree.
                        Our discussion refers to an ADVISE pilot conducted at the Bio Defense
                        Knowledge Center since 2004, not to any additional pilot projected for later in
                        2007. A copy of documentation that DHS provided to congressional staff
                        shows that the pilot was operational beginning in 2004. 14 Further, during our
                        visit to the center, we also received a demonstration of the pilot, showing that
                        it was underway and contained personally identifiable information.

                        Lastly, we closed our recommendation on privacy coordination, given the
                        Under Secretary’s statement that an S&T liaison to the DHS Privacy Office
                        was appointed recently.

                        Data Access:

                        The Under Secretary stated that S&T is not directly responsible for data
                        access at OI&A. We agree with this assertion. However, as we state in our
                        report, without first determining what data was needed and how it would be
                        accessed, OI&A analysts had no effective means of evaluating the utility of

14
  Threat Awareness Portfolio, FY 2007 TAP Budget, DHS Briefing to Homeland Security Appropriations Subcommittee
Staff, April 21, 2006.
                            ADVISE Could Support Intelligence Analysis More Effectively

                                                     Page 24
the system during the pilot phase. For example, OI&A analysts and ADVISE
program officials that we interviewed indicated that limited data access posed
significant challenges to testing and evaluating TVIS.

The Under Secretary concurred with our recommendation that S&T
coordinate with OI&A to create data requirements and an access strategy.
However, because this was not done early on, S&T did not fully understand
user requirements for an automated means of easily processing and analyzing
large amounts of unstructured data. Although the Under Secretary stated that
extracting facts and relationships from unstructured text accurately is very
difficult and time consuming, this is precisely what ADVISE must do to
address the needs of the intelligence analyst user community. Without such
utility, analysts find limited value in using ADVISE and continue to rely upon
their existing systems instead.

Further, although the Under Secretary stated that the timeline for TVIS is
incorrect, he does not specify what revisions are needed. As depicted, our
timeline reflects documentation that Pacific Northwest National Laboratory
provided to us that TVIS went “on-line January 2005.”

Usability and Performance Measures:

In response to recommendation 5, the Under Secretary disagreed with our
assessment of ADVISE usability, and provided additional information on
usability tests conducted at the Interagency Center for Applied Homeland
Security Technology using pre-loaded data and involving analysts from
various backgrounds. We updated our report with the results of this test,
which was completed after our audit fieldwork had ended. However, in his
response to the recommendation, the Under Secretary misinterprets the
message of our report, which addressed whether or not analysts at OI&A
found the pilot system, broadly speaking, useable when applied to their
specific intelligence work and not the usability of the ADVISE user interface
alone. As we stated in the report, OI&A analysts indicated that preparing data
for ADVISE processing was difficult and time consuming, which led to
limited use of the system.

The Under Secretary neither concurred nor non-concurred with our
recommendation to define usability requirements and related performance
metrics to ensure that future data mining efforts will be sufficiently user
friendly to support analysts. Instead, the Under Secretary discussed the goals
of the new IPT process, which include developing capability gaps, identifying
related performance measures, defining usability, and incorporating that
definition into program plans. We believe the IPT process is an effective step
toward addressing our recommendation and look forward to receiving
additional information on the results of IPT efforts.

   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 25
Stakeholder Involvement:

In response to recommendation 6, the Under Secretary said that S&T
effectively communicated and coordinated with OI&A system users during
pilot activities. We agree that S&T provided OI&A analysts with on-site
support and training; however, we determined that communication with
leadership regarding the ADVISE acquisition was lacking. For example, as
we stated in our report, S&T did not coordinate effectively with senior OI&A
executives to ensure their commitment to adopting ADVISE as a solution for
their intelligence analysis needs.

The Under Secretary disagreed with our statement in the report that OI&A had
declined to be an ADVISE customer. The Under Secretary questioned how we
had made this determination, asserting that OI&A has not made a decision yet
on acquiring ADVISE. S&T provided us with a copy of an email in an
attempt to disprove our statement. However, we were unable to rely on it for
support as sender and recipient information on the document had been
redacted. As such, we stand by our determination. During our audit
fieldwork, the senior OI&A decision maker told us specifically that, given the
privacy and data mining concerns about ADVISE, as well as the availability
of off-the-shelf alternatives, the component likely would not pay to acquire
the system. This official said that OI&A would continue to use existing tools
until an appropriate IT solution could be identified and acquired.

Additionally, the Under Secretary did not concur or non-concur with our
recommendation to involve DHS stakeholders in the IT acquisition process as
a means of ensuring that the system will meet their needs. The Under
Secretary countered that S&T does not perform IT acquisitions because that is
a function of the DHS CIO. Nonetheless, S&T’s recent introduction of the
IPT process, involving stakeholders at all levels, is a step in the right direction
and may help in involving leadership and gaining their commitment to R&D
efforts.

Comparative Analysis:

The Under Secretary did not concur or non-concur with our recommendation
7 that a comparative analysis of available tools be conducted to determine if
the current tools meet customer’s needs and provide viable alternatives. The
Under Secretary countered this recommendation by stating that S&T has
already conducted an alternatives analysis. We agree. ADVISE program staff
briefed senior OI&A Management on a comparative analysis of the tools on
March 15, 2007. However, S&T conducted this analysis two years after the
system had already been piloted. Further, as we state in our report, S&T’s
presentation to OI&A leadership on the results of this analysis was too
technical and did not convince the leadership that ADVISE was unique and
the right solution in comparison with other potential off-the-shelf tools.
   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 26
The Under Secretary incorrectly interprets our report as stating that ADVISE
will replace Analyst’s Notebook. Rather, our report states that Analyst’s
Notebook, similar to ADVISE, provides analysts with the ability to depict
connections between people and organizations. With this statement, we
compare the tools, but do not suggest that ADVISE will replace Analyst’s
Notebook.

Other Topics of Concern:

As part of his response, the Under Secretary provided a table of detailed
comments cross-referenced to specific pages of our report. We reviewed the
comments and made changes to our report as appropriate. Many of the
comments related to our report recommendations, which we have addressed
above.

However, the Under Secretary provided an additional comment that our report
implicitly compares the defunct Total Information Awareness (TIA) system to
ADVISE. Rather, we mentioned TIA as part of the background discussion of
the report to illustrate the challenge of balancing privacy assurance with data
mining processes. We do not specifically compare ADVISE with TIA.

The Under Secretary also stated that our report should address GAO’s
recommendation that S&T conduct a privacy assessment on the ADVISE
system alone, even prior to entering data into the system. However, our report
does not make this recommendation; as such, it is not appropriate for us to
address this issue. Nonetheless, as we indicated in our report, privacy should
have been assessed in a timely fashion for each ADVISE pilot.




   ADVISE Could Support Intelligence Analysis More Effectively

                            Page 27
Appendix A
Scope and Methodology


                  As background for this audit, we researched and reviewed IT laws,
                  regulations, and other federal guidance applicable to DHS’ responsibility for
                  data mining to determine terrorist activity. We reviewed prior GAO and DHS
                  OIG reports related to data mining. We searched the Internet to obtain
                  testimony, reports, documents, and news articles regarding DHS’ data mining
                  approach and the use of data mining systems. Additionally, we coordinated
                  with GAO to ensure that an audit it was conducting did not overlap with our
                  audit objectives. Using this information, we designed a data collection
                  approach that consisted of focused interviews and documentation analysis.
                  We developed a series of questions and discussion topics to facilitate our
                  interviews.

                  We interviewed DHS officials and staff at S&T and OI&A to obtain an
                  understanding of DHS’ approach to using data mining for determining
                  potential terrorist activity. These officials discussed their roles,
                  responsibilities, and activities related to planning, developing, testing, and
                  implementing ADVISE. We collected and reviewed numerous documents
                  from DHS officials about their plans and current initiatives for ADVISE.

                  Further, we visited various technical facilities to gain an understanding of
                  their operations and involvement in development, testing, and deployment of
                  ADVISE. We also met with potential customers of the system to learn about
                  their experiences with S&T program and project management throughout the
                  system development and transition process. Specifically, we visited:

                        •   The Interagency Center for Applied Homeland Security Technologies,
                            a state-of-the art independent testing facility, operated by Johns
                            Hopkins University in Laurel, MD. The Center plays an instrumental
                            role in testing and evaluating the ADVISE system using fabricated
                            synthetic data. The Center’s officials provided their perspectives on
                            ADVISE program management, communications, and training.

                        •   The Lawrence Livermore National Laboratory in Livermore, CA, and
                            Pacific Northwest National Laboratory in Richland, WA, to
                            understand ADVISE requirements definition and development, and to
                            observe system operations using real data. While at Livermore, we
                            visited the Biodefense Knowledge Center and the All-WME at
                            Livermore to understand how ADVISE is used to contain bio-
                            terrorism and terrorism using weapons of mass effect. We interviewed
                            contractor personnel there, focusing on implementation of ADVISE, as
                            well as business processes, communication and coordination with
                            DHS, and systems training. Where possible, we obtained reports and
                            other materials to support the comments and information they
                            provided during the interviews.

                        ADVISE Could Support Intelligence Analysis More Effectively

                                                 Page 28
Appendix A
Scope and Methodology


                        •   Immigration and Customs Enforcement, Customs and Border
                            Protection, and the Office of Intelligence and Analysis to gather their
                            feedback on interaction with S&T and any system implementation
                            challenges.

                  We limited our review of the privacy implications of ADVISE to those
                  aspects not covered in the GAO’s review of ADVISE, particularly OI&A.

                  We conducted our audit from October 2006 through March 2007. We
                  performed our work pursuant to the Inspector General Act of 1978, as
                  amended, and according to generally accepted government auditing standards.

                  The principal OIG points of contact for the audit are Frank Deffer, Assistant
                  Inspector General for Information Technology Audits, and Sondra McCauley,
                  Director, Information Management. Major contributors to the audit are
                  identified in Appendix C.




                        ADVISE Could Support Intelligence Analysis More Effectively

                                                 Page 29
Appendix B
Management Comments to the Draft Report




                     ADVISE Could Support Intelligence Analysis More Effectively

                                              Page 30
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 31
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 32
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 33
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 34
Now on
Page 16




Now on
Page 13




          ADVISE Could Support Intelligence Analysis More Effectively

                                   Page 35
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 36
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 37
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 38
Now on
Page 6




         ADVISE Could Support Intelligence Analysis More Effectively

                                  Page 39
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 40
Now on
Page 12




          ADVISE Could Support Intelligence Analysis More Effectively

                                   Page 41
Now on
Page 15

Now on
Page 15

Now on
Page 17




          ADVISE Could Support Intelligence Analysis More Effectively

                                   Page 42
Now on
Page 19




          ADVISE Could Support Intelligence Analysis More Effectively

                                   Page 43
ADVISE Could Support Intelligence Analysis More Effectively

                         Page 44
Appendix C
Major Contributors to this Report



                    Information Management Division

                    Sondra McCauley, Director
                    Richard Harsche, Audit Manager
                    Steve Staats, Auditor
                    Shannon E. Frenyea, Auditor
                    Anthony Nicholson, Referencer




                       ADVISE Could Support Intelligence Analysis More Effectively

                                                Page 45
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      DHS OIG Liaison
                      DHS Chief Information Officer
                      DHS Deputy Chief Information Officer
                      Directorate for Science and Technology Audit Liaison
                      Assistant Secretary, Office of Intelligence and Analysis
                      Office of Intelligence and Analysis Chief Information Officer
                      Director, GAO/OIG Liaison Office
                      Under Secretary, Science and Technology
                      Under Secretary, Office of Intelligence and Analysis


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                         ADVISE Could Support Intelligence Analysis More Effectively

                                                  Page 46
Appendix C
Major Contributors to this Report




 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations:

     •   Call our Hotline at 1-800-323-8603;
     •   Fax the complaint directly to us at (202) 254-4292;
     •   Email us at DHSOIGHOTLINE@dhs.gov; or
     •   Write to use at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

 The OIG seeks to protect the identity of each writer and caller.
